MARY-CHRISTINE “M.C.” SUNGAILA
(949) 202-3062 (Direct Dial)
(949) 202-3162 (Direct Fax)
mc.sungaila@haynesboone.com

February 14, 2020
VIA E-FILING AND FIRST-CLASS MAIL
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Laurel Zuckerman, as Ancillary Administratrix of the Estate of Alice
Leffmann v. The Metropolitan Museum of Art, No. 19-942

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioner Laurel Zuckerman, as
Ancillary Administratrix of the Estate of Alice Leffmann, hereby gives blanket
consent to the filing of amicus curiae briefs in support of either or of neither party in
the above-referenced case, with respect to the Petition for a Writ of Certiorari filed
on January 24, 2020.
Respectfully submitted,

Mary-Christine Sungaila
Haynes and Boone, LLP
600 Anton Boulevard, Suite 700
Costa Mesa, California 92626
Counsel of Record for Petitioner
Laurel Zuckerman
cc:

David Bowker, Esq.
Michael David Gottesman, Esq.
Wilmer Cutler Pickering Hale
and Dorr LLP
Counsel of Record for Respondent
The Metropolitan Museum of Art
Haynes and Boone, LLP
Attorneys and Counselors
600 Anton Boulevard, Suite 700
Costa Mesa, California 92626
T (949) 202-3000
F (949) 202-3001
www.haynesboone.com

